Report No. D-2011-057                      March 31, 2011




         American Recovery and Reinvestment Act
          Project—Repair and Modernization of
          Training Center in Anchorage, Alaska,
            Generally Met Recovery Act Goals
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
FAR                           Federal Acquisition Regulation
MARFORRES                     Marine Forces Reserve
MCRC                          Marine Corps Reserve Center
MILCON                        Military Construction
USACE                         U.S. Army Corps of Engineers
                                INSPECTOR GENERAL 

                               DEPARTMENT OF DEFENSE 

                                  400 ARMY NAVY DRIVE 

                             ARLINGTON, VIRGINIA 22202-4704 


                                                                            MAR3 1 2011 



MEMORANDUM FOR COMMANDER, U.S. ARMY ENGINEERING AND
                SUPPORT CENTER
               DEPUTY ASSISTANT CHIEF OF STAFF (FACILITIES),
                MARINE FORCES RESERVE

SUBJECT: 	 American Recovery and Reinvestment Act Project-Repair and
           Modernization of Training Center in Anchorage, Alaska, Generally Met
           Recovery Act Goals (Report No. D-2011-057)

We are providing this report for your information and use. Personnel from the Marine
Forces Reserve, the U.S. Army Engineering and Support Center, and the U.S. Army
Corps of Engineers, Alaska District, justified the Recovery Act project and generally met
the Recovery Act goals regarding accountability and transparency. We considered
management comments on a draft of this report when preparing the final report.
Comments from the U.S. Army Engineering and Support Center conformed to the
requirements of DoD Directive 7650.3 and left no unresolved issues. Therefore, we do
not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct any questions to me
at (703) 604-8866 (DSN 664-8866).



                                            al~'
                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2011-057 (Project No. D2010-D000LH-0249.000)                                March 31, 2011

              Results in Brief: American Recovery and
              Reinvestment Act Project – Repair and
              Modernization of Training Center in
              Anchorage, Alaska, Generally Met Recovery
              Act Goals

What We Did                                            What We Recommend
Our objective was to determine whether                 We recommend that the Chief, Facilities
personnel from Marine Forces Reserve, the U.S.         Support Branch Contracting, U.S. Army
Army Engineering and Support Center in                 Engineering and Support Center, in coordination
Huntsville, Alabama, and the U.S. Army Corps           with the Deputy Assistant Chief of Staff
of Engineers, Alaska District, adequately              (Facilities), Marine Forces Reserve:
planned, funded, initially executed, and had              • Review the missing Federal Acquisition
personnel and procedures in place to track and                 Regulation clauses,
report the Recovery Act project for whole                 • Determine whether the clauses are
facility repair and modernization of the Marine                applicable to the contract, and
Corps Reserve Center at Anchorage, Alaska, in             • Modify the contract as necessary.
accordance with Public Law 111-5, “American
Recovery and Reinvestment Act of 2009,”                Management Comments and
(Recovery Act), February 17, 2009.
                                                       Our Response
What We Found                                          Management comments were responsive to the
                                                       recommendations. U.S. Army Engineering and
The Recovery Act repair and modernization
                                                       Support Center personnel agreed with the
project was justified and generally met the
                                                       finding and recommendation provided in the
Recovery Act goals for accountability and
                                                       draft report. Please see the recommendation
transparency. Marine Forces Reserve and the
                                                       table on the back of this page.
U.S. Army Engineering and Support Center
                                                                Marine Corps Reserve Center
planned, funded, and had personnel and
                                                                       Repair in Progress
procedures in place to track and report the
project as required by the Recovery Act.

The U.S. Army Engineering and Support Center
omitted eight Federal Acquisition Regulation
clauses, required by Recovery Act
implementation guidance, from the contract,
which may impact the ability to hold contractors
accountable for all Recovery Act regulations or
ensure protection of the environment.


                                                              Source: U.S. Army Corps of Engineers,

                                                                 Alaska District, September 2010

                                                   i
Report No. D-2011-057 (Project No. D2010-D000LH-0249.000)              March 31, 2011


Recommendation Table

          Management                    Recommendation        No Additional Comments
                                       Requires Comment             Required
U.S. Army Engineering and Support                           1.
Center




                                             ii
Table of Contents

Introduction                                                                      1

      Objective                                                                   1
      Recovery Act Goals                                                          1

      Recovery Act Spending                                                       1

      Recovery Act Project at MCRC in Anchorage                                   2

      Review of Internal Controls                                                 2


Finding. Repair and Modernization of the Marine Corps Reserve Center 

Generally Met Recovery Act Requirements                                           3

      Marine Forces Reserve Personnel Justified Recovery Act 

          Project Requirements                                                    3

      Marine Forces Reserve Properly Distributed Recovery Act Funds in a 

          Timely Manner                                                           5

      Initial Project Execution Was Generally Adequate                            5

      Personnel and Procedures Were in Place to Meet Recovery Act Requirements    7

      Management Comments on the Finding and Our Response                         7

      Recommendation, Management Comments, and Our Response                       8


Appendix
     Scope and Methodology                                                        9


Management Comments
     U.S. Army Engineering and Support Center                                    11 

Introduction
Objective
Our overall objective was to evaluate DoD’s implementation of Public Law 111-5,
“American Recovery and Reinvestment Act of 2009,” (Recovery Act),
February 17, 2009. We reviewed the implementation of the DoD Recovery Act plans at
the Service and installation levels to determine whether the Marine Forces Reserve
(MARFORRES), U.S. Army Engineering and Support Center in Huntsville, Alabama,
and U.S. Army Corps of Engineers (USACE), Alaska District, personnel managed
individual projects to achieve the accountability and transparency goals of the Recovery
Act. Specifically, we determined whether personnel at MARFORRES, the U.S. Army
Engineering and Support Center, and USACE, Alaska District, adequately planned,
funded, executed, and tracked and reported the Recovery Act project for repair and
modernization of the Marine Corps Reserve Center (MCRC), in Anchorage, Alaska, to
ensure the appropriate use of Recovery Act funds. See the appendix for a discussion of
the audit scope and methodology related to the audit objective.

Recovery Act Goals
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

Recovery Act Spending
DoD received approximately $7.14 billion 1 in Recovery Act funds to use for projects that
support the Act’s purposes. In March 2009, DoD released expenditure plans that listed
DoD projects to be funded by the Recovery Act. The Department of the Navy received
$1.171 billion in Recovery Act funds, including $816 2 million for Operations and
Maintenance and $280 million for Military Construction (MILCON). The following
table provides specific funds allocated to each appropriation.



1
 This amount does not include $4.6 billion for the U.S. Army Corps of Engineers. The original
appropriation for DoD was $7.4 billion; however, Public Law 111-226 rescinded $260.5 million.
2
  Public Law 111-226 rescinded $50 million of Operations and Maintenance funding for the Department of
the Navy. Public Law 111-226 did not affect MILCON or Research, Development, Test and Evaluation
funding for the Department of the Navy.

                                                   1

             Department of the Navy Program-Specific Recovery Act

                      Appropriations (After Funds Rescinded)

                   Appropriations                       Amount (millions)
 Operations and Maintenance                                    $816
 Military Construction                                           280
 Research, Development, Test and Evaluation                       75
   Total                                                      $1,171

Of the $1.171 billion appropriated, the Department of the Navy allocated approximately
$3.99 million (Operations and Maintenance) for the repair and modernization of the
MCRC in Anchorage, Alaska. This project consists of repairing and modernizing the
interior and exterior of the building, heating and air conditioning system, and ventilation,
and will also improve the facility’s storage capacity.

Recovery Act Project at MCRC in Anchorage
The MCRC, located on Elmendorf Air Force Base, Anchorage, Alaska is home to the
Delta Company, Anti-Terrorism Battalion, 4th Marine Division (the Battalion). The
mission of the Battalion recently changed from supporting a Marine Reconnaissance
Battalion to supporting an Anti-Terrorism Force Protection unit, which brought a change
in operational needs of the facility and differing space and storage requirements. The
Battalion has supported contingency operations as well as played a vital role in support of
fleet operations by providing personnel to support the active duty force.

An interservice support agreement exists between MARFORRES and the U.S. Air
Force’s 3rd Wing, which supports the Battalion on Elmendorf Air Force Base. The
interservice support agreement outlines the responsibilities of the 3rd Wing and the tenant
organizations of MARFORRES, including funding responsibilities for major construction
and modifications of existing facilities where Marine units are the sole user.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance programs are operating as intended
and to evaluate the effectiveness of the controls. We identified an internal control
weakness with the administration of the Recovery Act repair and modernization project
as defined by DoD Instruction 5010.40. Specifically, the U.S. Army Engineering and
Support Center omitted eight Federal Acquisition Regulation (FAR) clauses, required by
Recovery Act guidance, from the contract. We discussed this issue in detail in the
Finding section of this report. We will provide a copy of the report to the senior official
responsible for internal controls at the U.S. Army Engineering and Support Center.




                                             2

Finding. Repair and Modernization of the
Marine Corps Reserve Center Generally Met
Recovery Act Requirements
Personnel at MARFORRES and the U.S. Army Engineering and Support Center
generally met the Recovery Act’s goals of accountability and transparency as provided in
the Recovery Act. MARFORRES personnel properly justified, planned, and funded the
project. U.S. Army Engineering and Support Center and USACE, Alaska District
personnel had procedures in place to track and report the project as required by the
Recovery Act. However, U.S. Army Engineering and Support Center personnel omitted
eight Federal Acquisition Regulation (FAR) clauses required by Recovery Act
implementation guidance, which may impact the ability of the U.S. Army Engineering
and Support Center to hold contractors accountable for all Recovery Act requirements or
ensure protection of the environment. The U.S. Army Engineering and Support Center
should review the missing clauses, determine whether the clauses are applicable to the
contract, and modify the contract as necessary.

Marine Forces Reserve Personnel Justified Recovery
Act Project Requirements
MARFORRES personnel adequately justified and planned the project. According to 

planning documents, the mission of the MCRC in Anchorage changed from supporting a 

Marine Reconnaissance Battalion to supporting an Anti-Terrorism Force Protection unit, 

which brought a change in operational needs of the facility and differing space and

storage requirements. Additionally, the weather conditions in Alaska caused significant 

wear and damage to the facility. Improvements, such as an upgrade in the heating, 

ventilation, and air conditioning system; installation of insulation; and improvements to 

the design of the roof were necessary to maintain the facility’s operational capability.


MARFORRES personnel did not complete a DD Form 1391, “Military Construction

Project Data,” (DD Form 1391), because of lack of resources. Marine Corps

Order P11000R.20, “Real Property Facilities Manual, Volume XIV, Reserve Facilities,” 

August 8, 1988, states that a DD Form 1391 shall be submitted to the Headquarters, 

Marine Corps for approval on all repair projects exceeding $400,000. However, 

MARFORRES personnel stated that the Marine Corps Order is outdated and does not

reflect the current MARFORRES command structure or approval authority. According 

to MARFORRES personnel, the Reserve Facilities Manual is currently being revised.


Despite not having a DD Form 1391, MARFORRES and U.S. Army Engineering and 

Support Center personnel provided various planning documents in support of the project

requirements. Between 2004 and 2007, there were three evaluations of the MCRC that

identified building deficiencies. In January 2004, the 3rd Civil Engineering Squadron at

Elmendorf Air Force Base conducted an infrared survey of the exterior and interior of the

MCRC. The survey results showed several locations on the exterior structure where heat 

was escaping and locations within the building where cold air was getting in. 



                                            3

Additionally, in May 2007, the U.S. Army Engineering and Support Center contracted
with Ameresco to conduct a site investigation of the MCRC, assess the interior and
exterior condition of the facility, evaluate the work to be performed, and prepare a site
investigation report. The site investigation report identified approximately
30 deficiencies, such as ice damage and improper door seals. In June 2007,
MARFORRES personnel conducted a site visit to the MCRC to determine the minimum
area necessary to perform the anti-terrorism, force protection mission and identify
deficiencies for preparation of scope of work.

We compared the repair and modernization requirements in each of these reports to the
Statement of Work for the contract and concluded that the requirements for this project
were fully justified. The U.S. Army Engineering and Support Center relied heavily on
Ameresco’s report to develop the Statement of Work for the contract.

Cost Estimates Supported the Contract Amount
MARFORRES personnel provided three cost estimates to support the project.
MARFORRES personnel used historical cost data from similar projects to develop a
rough cost estimate of approximately $4.5 million. In August 2009, U.S. Army
Engineering and Support Center personnel developed a Government cost estimate that
provided a detailed breakout of project costs associated with items identified in the
Statement of Work, such as repair to the exterior of the facility and modernization of the
heating system. U.S. Army Engineering and Support Center personnel used the
Government cost estimate for the project, valued at $5.6 million, to assess the
reasonableness of contractor proposals.

In August 2008, U.S. Army Engineering and Support Center personnel developed a
detailed cost estimate for the project, valued at $4.7 million, to develop budget estimates
for the project. This estimate matches the amount in the DoD Expenditure Plan, and
supported the contract cost of $3.99 million.

Economic Analysis Was Not Performed Because Viable
Alternatives Did Not Exist
While MARFORRES personnel did not perform an economic analysis for the project,
personnel stated that they discussed other options to the repair and modernization, such as
finding alternate locations for the MCRC. However, no other options could match the
required force protection levels currently available to MARFORRES on Elmendorf Air
Force Base. Additionally, Marine Corps Order P11000R.20 does not require an
economic analysis other than for new construction of a bachelor enlisted quarters.




                                             4

Marine Forces Reserve Properly Distributed Recovery
Act Funds in a Timely Manner
MARFORRES personnel distributed Recovery Act funds to the project in a timely
manner, and the funding documents properly identified the project with a Recovery Act
designation. Funding documents showed that MARFORRES transferred $4.7 million in
Recovery Act funds to the U.S. Army Engineering and Support Center on July 1, 2009.
U.S. Army Engineering and Support Center personnel awarded the task order for
approximately $3.99 million on September 29, 2009. The bid savings of approximately
$707,000 were transferred back to MARFORRES on September 30, 2009.
MARFORRES personnel stated bid savings resulting from Recovery Act projects were
used for other approved Recovery Act projects.

Initial Project Execution Was Generally Adequate
U.S. Army Engineering and Support Center personnel generally performed adequate
initial execution of the project. In our evaluation of the initial project execution, we
determined whether the contract was competitively solicited and awarded with full
transparency and whether it contained the FAR clauses required by Recovery Act
implementation guidance.

Contracting personnel at the U.S. Army Engineering and Support Center awarded the
task order competitively using a firm-fixed price task order of approximately
$3.99 million in September 2009. The U.S. Army Engineering and Support Center
executes the Facility Repair and Renewal program, which provides a method for the
design and execution of facility repairs, renovations, and minor construction for
the USACE. The USACE utilizes multiple indefinite-delivery, indefinite-quantity
contracts separated into three pools for 8(a) Business Development, HubZone, and
unrestricted companies. 3 Because of the size, difficulty, and location of the project,
contracting personnel determined that the project was too complex for the 8(a) and
HubZone contractors, and solicited proposals from the unrestricted contractors. The
project was competitively awarded to Innovative Technical Solutions, Inc., because its
proposal best represented the Government’s technical and price requirements. At the
time of our review, Innovative Technical Solutions, Inc. had registered on the Central
Contractor Registration Web site as required by FAR subpart 4.11, “Central Contractor
Registration.” In addition, the Excluded Parties List System did not show Innovative
Technical Solutions, Inc. as a debarred contractor.




3
  The Facility Repair and Renewal program includes two 8(a) contractors, two HubZone contractors, and
three Unrestricted contractors. The U.S. Small Business Administration’s programs for 8(a) Business
Development and HubZone Empowerment Contracting are designed to promote economic development in
historically-underutilized business zones by providing more access to Federal contracting opportunities.

                                                   5

Contracting personnel at the U.S. Army Engineering and Support Center properly
recorded contract actions to facilitate full transparency. Office of Management and
Budget Memorandum M-09-15, “Updated Implementing Guidance for the American
Recovery and Reinvestment Act of 2009,” April 3, 2009, describes requirements for
reporting Recovery Act-funded actions in the Federal Procurement Data System and
publicizing actions on Federal Business Opportunities. Contracting personnel properly
reported the contract award in the Federal Procurement Data System and announced the
solicitation and award on the Federal Business Opportunities Web site.

The contract omitted eight FAR clauses. Contracting personnel at the U.S. Army
Engineering and Support Center incorporated most of the FAR clauses required by the
Recovery Act, including those for whistleblower protection, reporting, the Davis-Bacon
Act, and the Buy American Act. However, we identified eight missing contract clauses
required by FAR part 23, “Environment, Energy, and Water Efficiency, Renewable
Energy Technologies, Occupational Safety, and Drug-free Workplace.” FAR part 23
prescribes policies and procedures for protecting and improving the quality of the
environment. According to Office of Management and Budget Memorandum M-09-15,
agencies must comply with the requirements of FAR part 23 when acquiring supplies and
services 4 using Recovery Act funds. The contract omitted the following clauses required
by FAR part 23:

         • FAR 52.223-2, “Affirmative Procurement of Biobased Products Under Service
           and Construction Contracts;”
         • FAR 52.223-3, “Hazardous Material Identification and Material Safety Data;”
         • FAR 52.223-4, “Recovered Material Certification;”
         • FAR 52.223-9, “Estimate of Percentage of Recovered Material Content for
           EPA-designated Items;”
         • FAR 52.223-13, “Certification of Toxic Chemical Release Reporting;”
         • FAR 52.223-15, “Energy Efficiency in Energy-Consuming Products;”
         • FAR 52.223-17, “Affirmative Procurement of EPA-designated Items in Service
           and Construction Contracts;” and
         • FAR 52.223-18, “Contractor Policy to Ban Text Messaging While Driving.”

Without these clauses, U.S. Army Engineering and Support Center personnel could not
hold contractors accountable for all Recovery Act requirements or ensure the protection
of the environment. U.S. Army Engineering and Support Center personnel should
evaluate the missing FAR clauses to determine their applicability to the Recovery Act
project and modify the contract accordingly.




4
    According to the definition of an acquisition in FAR Subpart 2.101, construction is a service.

                                                        6

Personnel and Procedures Were in Place to Meet
Recovery Act Requirements
DoD Directive 4270.5, “Military Construction,” February 12, 2005, states the
Department of the Army and the Department of the Navy may use the services of the
other Department in the interest of efficiency and cost effectiveness or when otherwise
considered appropriate. MARFORRES personnel determined that the U.S. Army
Engineering and Support Center was the best option for executing the project because of
their ability to leverage the USACE, Alaska District, to provide daily oversight of the
project.

MARFORRES, U.S. Army Engineering and Support Center, and USACE, Alaska
District, personnel had adequate procedures in place to track and report the project.
Contracting personnel have a Project Engineer/Construction Manager and Quality
Assurance Representative in place to monitor project schedules, address
nonconformances, and ensure the contractor meets contract requirements.

In addition, contracting personnel reviewed the information reported by the contractor to
ensure the contractor reported required Recovery Act information. FAR
clause 52.204-11, “American Recovery and Reinvestment Act – Reporting
Requirements,” requires contractors for Recovery Act projects to report project
information at http://www.FederalReporting.gov. Innovative Technical Solutions, Inc.
submitted quarterly reports that included total project dollar value, project status, jobs
created, and sub-contract awards.

Management Comments on the Finding and Our
Response
U.S Army Engineering and Support Center Comments
The U.S. Army Engineering and Support Center agreed with the finding and
recommendation in the report; however, they disagreed that the missing eight FAR
clauses are Recovery Act clauses. The U.S. Army Engineering and Support Center stated
that the missing FAR clauses were to ensure that personnel could provide proper
oversight of the contract and ensure compliance with the contract terms and conditions.

Our Response
We agree that incorporating the eight clauses into the contract will ensure that U.S. Army
Engineering and Support Center personnel are able to provide proper contractual
oversight and accountability to the contractors ensuring compliance to contract terms and
conditions. As stated in our report, FAR part 23 requires the missing contract clauses
that we identified. According to Office of Management and Budget Memorandum
M-09-15, agencies must comply with the requirements of FAR part 23 when acquiring
supplies and services using Recovery Act funds.



                                             7

Recommendation, Management Comments, and Our
Response
1. We recommend that the Chief, Facilities Support Branch Contracting, U.S.
Army Engineering and Support Center, in coordination with the Deputy Assistant
Chief of Staff (Facilities), Marine Forces Reserve:
   a. Review the missing FAR clauses,
   b. Determine whether the clauses are applicable to the contract, and
   c. Modify the contract as necessary.

U.S Army Engineering and Support Center Comments
The Deputy Chief, Headquarters Internal Review Office, forwarded comments from the
U.S. Army Engineering and Support Center. The contracting office at the U.S. Army
Engineering and Support Center re-evaluated for relevancy and applicability the eight
FAR clauses omitted from the contract. On February 16, 2011, the contracting officer
signed a contract modification to add the eight clauses to the contract.

Our Response
The comments from the U.S. Army Engineering and Support Center were fully
responsive, and the actions met the intent of the recommendations. No further comments
are required.




                                          8

Appendix. Scope and Methodology
We conducted this performance audit from July 2010 through January 2011. We
interviewed personnel from the U.S. Army Engineering and Support Center, in
Huntsville, Alabama; Marine Forces Reserve in New Orleans, Louisiana; and the U.S.
Army Corps of Engineers, Alaska District. We reviewed documentation including the
official contract files, planning documents, funding documents, and cost estimates. We
reviewed processes for tracking and reporting Recovery Act projects. We reviewed
Federal, DoD, United States Marine Corps and USACE guidance, and compared this
guidance with our audit results.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. The evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

Use of Computer-Processed Data
We used computer-processed data from the Federal Procurement Data System, Central
Contractor Registration, Excluded Parties List System, Federal Business Opportunities,
www.federalreporting.gov, and other systems. However, our use of computer-processed
data did not materially affect our audit results, findings, or conclusions. Therefore, we
did not evaluate the reliability of the computer-processed data we used.

Use of Technical Assistance
Before selecting DoD Recovery Act projects for audit, personnel in the Quantitative
Methods and Analysis Division of the DoD Office of Inspector General analyzed all DoD
agency-funded projects, locations, and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. Quantitative Methods and Analysis
Division personnel selected most audit projects and locations using a modified Delphi
technique, which allowed them to quantify the risk based on expert auditor judgment and
other quantitatively developed risk indicators. Initially, Quantitative Methods and
Analysis Division personnel selected 83 projects with the highest risk rankings. Auditors
chose some additional projects at the selected locations.

Quantitative Methods and Analysis Division personnel did not use classical statistical
sampling techniques that would permit generalizing results to the total population
because there were too many potential variables with unknown parameters at the
beginning of this analysis. The predictive analytic techniques employed provided a basis
for logical coverage not only of Recovery Act dollars being expended, but also of types
of projects and types of locations across the Military Services, Defense agencies,
National Guard units, and public works projects managed by the U.S. Army Corps of
Engineers.



                                            9

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                         10

U.S. Army Engineering and Support Center Comments





                                          DEPARTMENT OF THE ARMY
                                             U.S. ARMY CORPS OF ENGINEERS
                                              WASHINGTON, D.C. 2031-4·1000




        CEIR                                                                                28 February 20 II

        MEMORANDUM FOR U.S. Department of Defen,e, Office of the Inspector General
                            400 Anny Navy Drive,
                            Arlington, Virginia 22202-4704

        SUBJECT: DODIG Draft Report, "American Recovery and Reinvestment Act Project-
        Repair and Modernization of Training Center in Anchorage, Alaska, Generally Mel
        Recovery Act Goals" 28 January 2011 (DODIG-DOOOH-249.000)



        1. Reference DODIO report, subject as above.

        2. USACE commenlS are attached.

        3. ffyou have additional questions, please contact t.hie.un
                                                                  i de. rs
                                                                        . ign
                                                                            iied. o.r im.y. po
                                                                                            . in. t. oif.cioi0tact,
           Terri Jackson, at                       to add J
                                            or via email at.




        End                                            ~AL~4m~
                                                            Deputy Chief
                                                            HQ Internal Review Office




                                                                         11
                                                                                        22 February 2011

                                 DoDIG Audit
           American Recovery and Reinvestment Act Project-Repair and
             Modernization of Training Center in Anchorage. Alaska

Subjecl: DoD IG of Projecl No. D20 I 0-DOOOLH-0249.00

M emo: USACE HNC Contracting Directorate reviewed the subject DoD IG draft audit report. Below are
USACE HNC's comment(s) and/or response(s) pertaining to the auditor(s)'s comments, findings , and
recommendations.

ODD IG's Recommenda tion(s): We recommend that the Chid, Facilities Support Branch Contracting,
U.S. Army Engineering a nd Support Center, in coordination with tbe Deputy Assistant CbiefofStaff
(Facilities), Marine Forces Rcscn'e:

       I. Review the missing Federal Acquisition Regulation clauses
       2. Determine whether the clauses are applicable to the contract
       3. Modify the contract as necessary

HNC's Response to recommendation(s): The Contracting Officer re-evaluated the following FAR clauses for
                                    Click to add JPEG file
relevancy and applicabil ity to the awards supporti ng the Modernization of Traini ng Center in Anchorage,
Alaska requirement. The following clauses were evaluated:

• FAR 52.223-2        Affirmative Procurement o f Biobased Products Under Service
                      and Construction Contracts
• FA R 52.223-3       Hazardous Material Identifi cation and Material Safety Data
• FAR 52.223-4        Recovered Material Certi fi cation;"
• FAR 52.223-9        Estimate o f Percentage of Recovered Material Content for
                      EPA-designated Items
• FAR 52.223- 13      Certification of Toxic Chemical Release Reponing
• FAR 52.223- I 5     Energy Effi ciency in Energy-Consuming Products
• FAR 52.223 -1 7     Affirmative Procurement of EPA-designated Items in Service
                      and Construction Contracts
• FA R 52.223- 18     Contractor Policy to Ban Text Messaging Whi le Dri ving

The Contracting Officer signed a no cost modification to the subj ect award adding the required clauses that
were initially missing. The action was completed 16 Feb 2011,

HNC's Overall Response to Draft Report:

USACE- HNC agrees with the comments, findings, and recommendations provided by 0 00 IG in the subject
draft report with the exception of the last paragraph on page 6. The missing 8 FAR Clauses are not American
Reinvestment and Recovery Act Clauses, which are: the ARRA Buy American Act Clauses (52.225 -22, 52.225-
24, 52.225-21, or 52.225-23) and ARRA Clause for expanded GAO/DIG access 10 contraclor records (52.2 12-4,
52.212-5,52.2 14-26, or 52.2 15-2a1t I). Therefore, these clauses make certain that USACE HNC personnel are
able to provide proper contractual oversight and accountabi li ty to the contractors ensuring compliance to
contract tenns and conditions and to Recovery Act reporting requirements.




                                                                   12
